Pension Benefit Guaranty Corporation
      Office of Inspector General
               Audit Report




  Report on Internal Controls Related to the
Pension Benefit Guaranty Corporation’s Fiscal
Year 2010 and 2009 Financial Statements Audit




             November 12, 2010
                                   AUD-2011-3/FA-10-69-2
                 Report on Internal Controls Related to the
                  Pension Benefit Guaranty Corporation’s
              Fiscal Year 2010 and 2009 Financial Statements

                   Audit Report AUD-2011-3 / FA-10-69-2


                                   Contents


Section I:     Independent Auditor’s Report

Section II:    Management Comments

                                  Acronyms

BPD            Bureau of Public Debt
C&A            Certification and Accreditation
CAP            Corrective Action Plan
CFS            Consolidated Financial System
COOP           Continuity of Operations Program
EDM            Enterprise Data Model
ELAN           Enterprise Local Area Network
FIPS PUB       Federal Information Processing Standards Publication
FMFIA          Federal Managers’ Financial Integrity Act of 1982
FY             Fiscal Year
IAA            Interagency Agreement
IAH            Information Assurance Handbook
IPVFB          Integrated Present Value of Future Benefits
ISO            Information System Owner
IT             Information Technology
NIST SP        National Institute of Standards and Technology Special Publication
OIG            Office of Inspector General
OIT            Office of Information Technology
OMB            Office of Management and Budget
PAS            Premium Accounting System
PBGC           Pension Benefit Guaranty Corporation
PII            Personally Identifiable Information
PPS            Premium and Practitioner System
PRISM          Participant Records Information Systems Management
RTM            Requirements Traceability Matrix
TAS            Trust Accounting System
   Report on Internal Controls Related to the
    Pension Benefit Guaranty Corporation’s
Fiscal Year 2010 and 2009 Financial Statements



    Audit Report AUD-2011-3 / FA-10-69-2




                 Section I

     Independent Auditor’s Report
                                                    
                                                      


                                    Pension Benefit Guaranty Corporation


To the Board of Directors, Management,
and Inspector General of the
Pension Benefit Guaranty Corporation
Washington, DC


We have audited the financial statements of the Pension Benefit Guaranty Corporation (PBGC)
as of and for the year ended September 30, 2010, and have examined management’s assertion
included in PBGC’s Annual Report about the effectiveness of the internal control over financial
reporting (including safeguarding assets) and PBGC's compliance with certain provisions of
laws, regulations, and other matters, and have issued our combined report thereon dated
November 12, 2010 (see OIG report AUD-2011-2/FA-10-69-1).

We conducted our audit and examination in accordance with auditing standards generally
accepted in the United States of America; Government Auditing Standards, issued by the
Comptroller General of the United States; attestation standards established by the American
Institute of Certified Public Accountants; and Office of Management and Budget (OMB) audit
guidance.

The purpose of this report is to provide more detailed discussions of the specifics underlying the
material weakness reported in the internal control section of our combined report on PBGC’s
fiscal year (FY) 2010 financial statements. As reported in our combined report on PBGC’s
FY 2010 financial statements, we identified certain deficiencies in internal control that we
consider significant deficiencies, which combined constitute a material weakness.

Summary

PBGC protects the pensions of approximately 44 million workers and retirees in more than
27,500 private defined benefit pension plans. Under Title IV of the Employee Retirement Income
Security Act of 1974, PBGC insures, subject to statutory limits, pension benefits of participants
in covered private defined benefit pension plans in the United States. To accomplish its mission
and prepare its financial statements, PBGC relies extensively on information technology (IT).
Internal controls over these operations are essential to ensure the confidentiality, integrity, and
availability of critical data while reducing the risk of errors, fraud, and other illegal acts.

Our review of IT controls covered general and selected business process application controls.
General controls are the structure, policies, and procedures that apply to an entity’s overall
computer systems. They include entity-wide security management, access controls,
configuration management, segregation of duties and contingency planning controls. Business
process application controls are those controls over the completeness, accuracy, validity,
confidentiality, and availability of transactions and data during application processing.


11710 Beltsville Drive, Suite 300
Calverton, MD 20705-3106
tel: 301-931-2050
fax: 301-931-1710
www.cliftoncpa.com
                                                     1
                                                                                    
Our review also included the integration of financial management systems to ensure effective
and efficient interrelationships. These interrelationships include common data elements,
common transaction processing, consistent internal controls, and transaction entry.

PBGC’s systemic security control weaknesses and the lack of an integrated financial
management system continued to pose an increasing and substantial risk to PBGC’s ability to
carry out its mission during FY 2010. PBGC’s key decision makers are acutely aware of the
challenges facing the Corporation in addressing fundamental weaknesses in its IT infrastructure
and environment. Management has therefore taken a multiyear approach to correct these
deficiencies at the root cause level. However, in past years, communication between PBGC’s
key decision makers did not convey the urgent need for decisive strategic decisions to correct
fundamental weaknesses in PBGC’s IT infrastructure and environment. Strategic IT decisions
did not address these deficiencies, and significant weaknesses identified in prior years,
continued to persist.

PBGC’s decentralized approach to system development and configuration management has
exacerbated control weaknesses and encouraged inconsistency in implementing strong
technical controls and best practices. The influx of 620 plans for over 800,000 participants from
2002-2005, contributed to PBGC’s disjointed IT development and implementation strategy. The
mandate to meet PBGC’s mission objectives by implementing technologies to receive the influx
of plans superseded proper enterprise planning and IT security controls. The result was a series
of stovepipe solutions built upon unplanned and poorly integrated heterogeneous technologies
with varying levels of obsolescence.

The Corporation has now embarked on a more coherent strategy and cost effective approach to
resolving and correcting these fundamental IT weaknesses. PBGC has developed and is
implementing a multi-year corrective action plan (CAP) to address security issues at the root
cause level. However, PBGC management realizes these weaknesses will continue to pose a
threat to its environment for several years while corrective actions are being implemented.
PBGC will need to implement interim corrective actions to ensure fundamental security
weaknesses do not worsen as the CAP is being implemented.

PBGC has entered into an interagency agreement (IAA) with the Bureau of Public Debt (BPD)
of the Department of the Treasury to assist PBGC in revising and strengthening its security
management program and certification and accreditation (C&A) process. The multi-year CAP
includes the implementation of a more effective C&A process, addressing fundamental security
weaknesses and initiating an IT infrastructure modernization program. In FY 2010, PBGC
procured and implemented new hardware in its infrastructure, as it works towards modernization
of its IT infrastructure. Additional future actions include completing PBGC’s Enterprise
Architecture segment.

Our current year audit work continued to find deficiencies in the areas of security management,
access controls, configuration management, and segregation of duties. Control deficiencies
were also found in policy administration, and the C&As of major applications and general
support systems. An effective entity-wide security management program requires a coherent
strategy for the architecture of the IT infrastructure, and the deployment of systems. The
implementation of a coherent strategy provides the basis and foundation for the consistent
application of policy, controls, and best practices. PBGC first needs to develop and implement a
framework to improve their security posture. This framework will require time for effective control
processes to mature.



                                                2
Based on our findings, we are reporting that significant deficiencies in the following areas
constitute a material weakness for FY 2010:

   1. Entity-wide security program planning and management
   2. Access controls and configuration management
   3. Integrated financial management systems

Detailed findings and recommendations follow.

1. Entity-wide Security Program Planning and Management

   During FY 2010, PBGC made strategic decisions to develop and implement a multi-year
   CAP to address fundamental weaknesses in its entity-wide security program planning and
   management. PBGC entered into an IAA for the services of the BPD to assist the
   Corporation in reassessing its security program and developing a framework for
   implementing a more coherent strategy for correcting fundamental IT security weaknesses
   at the root cause level. However, in past years, communication between PBGC’s key
   decision makers did not convey the urgent need for decisive strategic decisions to correct
   fundamental weaknesses in PBGC’s IT infrastructure and environment. Strategic IT
   decisions did not address these deficiencies, and significant weaknesses continued to
   persist. PBGC management realizes these weaknesses will continue to pose a threat to its
   environment for several years while corrective actions are being implemented.

   PBGC abandoned its C&A documentation and is working with BPD to revise and strengthen
   its C&A process to ensure security weaknesses are addressed at the root cause level.
   PBGC did not conduct any C&As in FY 2010. The Corporation has implemented a
   multi-year plan to correct its C&As.

   In prior years, PBGC’s entity-wide security program lacked focus and a coordinated effort to
   adequately resolve control deficiencies. These deficiencies, which continue to persist,
   prevent PBGC from implementing effective security controls to protect its information from
   unauthorized access, modification, and disclosure. The specific weaknesses we found that
   contributed to the material weakness and our recommendations to correct them are as
   follows:

      PBGC identified 65 common security controls for the 17 National Institute of Standards
       and Technology (NIST) special publication (SP) 800-53, Recommended Security
       Controls for Federal Information Systems, security control families. Of the 65 common
       security controls tested by PBGC in FY 2008, only four controls were properly designed
       and operating effectively. PBGC did not continue its implementation of common controls
       in FY 2009 and FY 2010. Weaknesses in PBGC’s infrastructure design and deployment
       strategy for systems and applications adversely affected its ability to effectively
       implement common security controls across its systems and applications. Without full
       development and implementation, security controls are inadequate; responsibilities are
       unclear, misunderstood, and improperly implemented; and controls are inconsistently
       applied. Such conditions lead to insufficient protection of sensitive or critical resources or
       disproportionately high expenditures for controls. Consequently, PBGC has not
       completed and confirmed the design, implementation, and operating effectiveness of its
       common security controls. Without testing control processes, management cannot have
       confidence that the controls were implemented.



                                                 3
    Recommendations:

    o   Effectively communicate to key decision makers the state of PBGC’s IT infrastructure
        and environment to facilitate the prioritization of resources to address fundamental
        weaknesses. (OIG Control # FS-09-01)

    o   Complete and confirm the design, implementation, and operating effectiveness of all
        65 common security controls identified. (OIG Control # FS-08-01)

    o   Develop a process to review and validate reported progress on the implementation of
        the common security controls. Implement a strategy to test and document the
        effectiveness of each new control implemented. (OIG Control # FS-09-02)

   PBGC’s process for the completion of C&A packages in accordance with NIST SP
    800-37, Guide for the Security Certification and Accreditation of Federal Information
    Systems, is ineffective. Fundamental weaknesses in PBGC’s infrastructure architecture
    and design do not support the C&A of its information systems. Furthermore, PBGC’s
    information systems employ obsolete and antiquated technologies that pose additional
    risk to the availability of financially significant systems. PBGC abandoned its C&A
    packages and is working with BPD to revise and strengthen its C&A process to ensure
    security weaknesses are addressed at the root cause level. PBGC did not conduct
    C&As in FY 2010. The Corporation has implemented a multi-year plan to correct its
    C&As.

    In FY 2009, PBGC asserted the completion of 13 C&A packages for its major
    applications and general support systems. However, our review indentified significant
    deficiencies in access controls and configuration management. PBGC’s quality control
    review of the C&A packages did not correct specific issues we identified in FY 2009. In
    addition, PBGC’s oversight of contractor performance during the C&A process was
    inadequate. The C&A packages were deficient in their quality, accuracy, and
    consistency.

    Our review of the C&A packages noted the following quality control weaknesses, each of
    which had been identified in our prior year audit:

    -   Limited documentation of test results, a condition that prevented third-party
        reviewers from re-performing, and thus validating, the tests.
    -   Deficiencies not included in the Plan of Action and Milestones.
    -   Documentation that did not support conclusions reached or test results.
    -   Inconsistencies or apparent errors and/or omissions in work performed.
    -   Information in the system boundaries section of the risk assessment conflicted with
        the listing of external connections.
    -   Minor applications identified in Security Control Worksheet, but not documented in
        the Risk Assessment.

    Without management oversight and accountability of contractor’s performance,
    management may accept work that does not meet Federal criteria. Such practices may
    lead to fraud, waste, or abuse; and to insufficient protection of sensitive or critical
    resources. In addition, projects may exceed approved budget if rework is required.
    Without monitoring contractor performance and performing a quality review of
    deliverables, management cannot have confidence in the work performed.


                                           4
PBGC did not provide an inventory of its major applications and general support systems
in FY 2010. In FY 2009, management provided three conflicting inventory lists of major
applications and general support systems. Some systems considered major on one
inventory list, were considered minor on the others. We could not determine
management’s assertion concerning the inventory of its major applications and general
support systems. Because of the contradictory information provided, we could not
determine which of these lists should be considered as management’s assertion
concerning the inventory of its major applications and general support systems.
Therefore, we could not determine which major applications and general support
systems require C&A.

The risk exists that systems could be certified, accredited, and receive an authorization
to operate without the assurance that complete and accurate results are obtained in
executing the C&A process. In addition, issues identified or missed because of
inaccurate or incomplete work performed will impact the corrective action required along
with the resource commitment needed to complete the intended action. PBGC did not
obtain a waiver from the OMB, allowing conditional authorization of its systems, as cited
in OIG report Authorization to Operate PBGC Information Systems (AUD-2010-8 / IT-09-
70), issued August 19, 2010.

PBGC does not have reasonable assurance regarding the confidentiality, integrity, and
availability of its information systems.

Recommendations:

o   Develop and implement a well-designed security management program that will
    provide security to the information and information systems that support the
    operations and assets of the Corporation, including those managed by contractors or
    other Federal agencies. (OIG Control # FS-09-03)

o   Complete the development and implementation of the redesign of PBGC’s IT
    infrastructure, and the procurement and implementation of technologies to support a
    more coherent approach to providing information services and information system
    management controls. (OIG Control # FS-09-04)

o   Implement an effective review process to validate the completion of the C&A
    packages for all major applications and general support systems. The review should
    not be performed by an individual associated with the performance of the C&A, or by
    someone who could influence the results. This review should be completed for all
    components of the work performed to ensure substantial documentation is available
    that supports and validates the results obtained. (OIG Control # FS-08-02)

o   Ensure that adequate documentation is maintained which supports, substantiates,
    and validates all results and conclusions reached in the C&A process.
    (OIG Control # FS-09-05)

o   Establish and implement comprehensive procedures and document the roles and
    responsibilities that ensure oversight and accountability in the certification and review
    process. Retain evidence of oversight reviews and take action to address erroneous
    or unsupported reports of progress. (OIG Control # FS-09-06)



                                          5
    o   Maintain an accurate and authoritative inventory list of major applications and
        general support systems. Ensure the list is disseminated to responsible staff and
        used consistently throughout PBGC Office of IT (OIT) operations. (OIG Control #
        FS-09-07)

    o   Implement an independent and effective review process to validate the completion of
        the C&A packages for all applications and general support systems hosted on behalf
        of PBGC by third party processors. The effective review should include examining
        host and general controls risk assessments. (OIG Control # FS-08-03)

    o   Implement robust and rigorous review procedures to verify that future contracts for
        the C&A of PBGC’s systems clearly outline expectations and deliverables in the
        statement of work. (OIG Control # FS-09-08)

    o   Implement a robust and rigorous quality review process to verify contractor C&A
        deliverables meet the requirements specified in the statement of work. (OIG Control
        # FS-09-09)

    o   Establish controls to ensure that contract staff tasked with the C&A of PBGC
        systems have the appropriate knowledge and background to accurately and
        comprehensively complete the C&A process. (OIG Control # FS-09-10)

    o   Implement a robust and rigorous process to verify compliance with PBGC’s policy on
        contractor management throughout the C&A lifecycle. (OIG Control # FS-09-11)

   Information security policies and procedures were not fully disseminated and
    implemented. PBGC is not able to effectively enforce compliance for Security
    Awareness training. PBGC currently has a cumbersome and error-prone manual
    process to account for personnel who had completed security awareness training. The
    process is ineffective and limits PBGC’s ability to ensure that all required personnel have
    completed security awareness training. In FY 2009, PBGC developed role-based
    training programs to disseminate its Information Assurance Handbook (IAH) policies and
    procedures to information system owners (ISOs), system administrators, and project
    managers. During our FY 2009 review, we noted that PBGC could not verify and validate
    whether all required personnel had completed the Information Security Awareness
    Training. Some project managers, ISOs and system administrators did not attend the
    risk management role-based training. The Contingency Plan Specialist was not aware of
    IAH guidance on required annual contingency training. Fifteen PBGC officials with
    Continuity of Operations Program (COOP) responsibilities did not attend required annual
    contingency training.

    PBGC changed its approach for its CAP process by placing more emphasis on
    correcting the root cause. This approach has resulted in completion dates being revised,
    and a multi-year approach to correct weaknesses noted above. Management indicated,
    in their CAP, that this finding would be remediated by September 30, 2011.

    In the interim, lack of security awareness can lead to increased risk of security breaches
    and exposure to fraud. Controls may not be placed in operation as mandated by PBGC
    policies.




                                             6
    Recommendation:

    o   Develop and implement a process to enforce the dissemination and awareness of
        PBGC’s security policies and procedures through adequate training. (OIG Control
        # FS-07-04)

   OIT and system owners (i.e. business owners) have not established and documented
    service level agreements that include metrics on OIT services required to meet business
    goals. PBGC is in the process of completing the development and distribution of
    measurable services provided to the business owners by the OIT.

    Recommendation:

    o   Establish, document, and publish measurable services that OIT provides to the
        Corporation, that are acceptable to all ISOs. (OIG Control # FS-07-06)

   PBGC’s benefit payments service provider (service provider) implemented a security
    operations center (SOC) outside of the United States (US), which will have some
    responsibility for monitoring security related events associated with the Pension Lump
    Sum (PLUS) application and components of its system boundary. The service provider
    did not provide PBGC with adequate advance notice to assess the security impact to the
    PLUS application on the change in environment before going operational. Furthermore,
    PBGC was not provided adequate time to assess risks to its systems and implement
    mitigating controls to ensure compliance with the PBGC’s policies and procedures. As a
    result, PBGC has not assessed the security impact of the change in environment.

    Recommendation:

    o   Develop and implement an immediate plan of action to address the potential security
        risk posed by locating the Security Operations Center outside of the US.
        (OIG Control # FS-10-01)

    o   Review PBGC contracts to ensure contractors are required to comply with PBGC
        information security standards and FISMA. (OIG Control #FS-10-02)

   PBGC has not executed an interconnection security agreement (ISA) or memorandum of
    understanding (MOU) between external organizations whose systems interconnect with
    PBGC’s systems.

    PBGC is in the process of planning and documenting security agreements for
    interconnection with external organizations’ systems. In the absence of an ISA and
    MOU, either party (PBGC or external system owner) may be unfamiliar with the technical
    requirements of the interconnection and details that may be required to provide an
    overall security for systems that are interconnected.

    Recommendation:

    o   Develop and implement an ISA and MOU with external organizations whose systems
        connect to PBGC’s systems. (OIG Control # FS-10-03)




                                           7
2. Access Controls and Configuration Management

   Although access controls and configuration management controls are an integral part of an
   effective information security management program, access controls remain a systemic
   problem throughout PBGC. PBGC’s decentralized approach to system development, system
   deployments, and configuration management created an environment that lacks a cohesive
   structure in which to implement controls and best practices. Weaknesses in the IT
   environment contributed significantly to deficiencies in system configuration, segregation of
   duties, role-based access controls, and monitoring. Furthermore, PBGC’s information
   systems are overlapping and duplicative, employing obsolete and antiquated technologies
   that are costly to maintain. The state of PBGC’s IT environment led to increased IT staffing
   needs, manual workarounds, reconciliations, extensive manipulation, and excessive manual
   processing that have been ineffective in providing adequate compensating controls to
   mitigate system control weaknesses. For example, the Financial Reporting and Account
   Analysis Group manually records present value of future benefits liabilities for single
   employer and multiemployer programs in the Consolidated Financial System (CFS), and the
   Financial Operations Department manually records Premium Income, Premium
   Receivables, and Unearned Premiums in CFS.

   Access controls should be in place to consistently limit, detect inappropriate access to
   computer resources (data, equipment, and facilities), or monitor access to computer
   programs, data, equipment, and facilities. These controls protect against unauthorized
   modification, disclosure, loss, or impairment. Such controls include both logical and physical
   security controls to ensure that Federal employees and contractors will be given only the
   access privileges necessary to perform business functions. Federal Information Processing
   Standards Publication (FIPS PUB) 200, Minimum Security Requirements for Federal
   Information and Information Systems, specifies minimum access controls for Federal
   systems. FIPS PUB 200 requires PBGC’s ISOs to limit information system access to
   authorized users.

   Industry best practices, NIST SP 800-64, Security Considerations in the System
   Development Life Cycle, and other Federal guidance recognize the importance of
   configuration management when developing and maintaining a system or network. Through
   configuration management, the composition of a system is formally defined and tracked to
   ensure that an unauthorized change is not introduced. Changes to an information system
   can have a significant impact on the security of the system. Documenting information
   system changes and assessing the potential impact on the security of the system, on an
   ongoing basis, is an essential aspect of maintaining the security posture. An effective entity-
   wide configuration management and control policy and associated procedures are essential
   to ensuring adequate consideration of the potential security impact of specific changes to an
   information system. Configuration management and control procedures are critical to
   establishing an initial baseline of hardware, software, and firmware components for the
   entity and subsequently controlling and maintaining an accurate inventory of any changes to
   the system.

   Inappropriate access and configuration management controls do not provide PBGC with
   sufficient assurance that financial information and financial assets are adequately
   safeguarded from inadvertent or deliberate misuse, fraudulent use, improper disclosure, or
   destruction.




                                               8
PBGC management realizes these weaknesses will continue to pose a threat to its
environment for several years while corrective actions are being implemented. PBGC
developed a CAP that is a three to five year holistic approach starting in FY 2010. The CAP
has been broken into several process families to address the underlying root causes of the
findings. The specific weaknesses we continued to find that contributed to the material
weakness and our recommendations to correct them are as follows:

   PBGC’s configuration management controls are labor intensive and ineffective.
    Weaknesses in the design of PBGC’s infrastructure and deployment strategy for
    systems and applications created an environment where strong technical controls and
    best practices cannot be effectively implemented. Configuration management controls
    are therefore not consistently implemented across PBGC’s general support systems.
    PBGC’s three IT environments (development, test, and production) do not share
    common server configurations; therefore, management cannot rely on results obtained
    in the development or test environments prior to deployment in production. Overall, the
    PBGC environment suffers from inadequate configuration, roles, privileges, logging,
    monitoring, file permissions, and operating system access.

    PBGC’s infrastructure does not adequately segregate the production, development and
    testing environments. The current environment does not provide adequate controls in
    which to implement an effective application development and change control program.

    Significant weaknesses noted in configuration management continued in FY 2010,
    include the following:
     Sensitive program scripts and utilities, open directories, and unsafe services
        accounts were not restricted.
     Unnecessary network services and duplicate groups with privileged system access
        were not removed.
     Baseline security reports were not being created and reviewed.
     Inappropriate configuration/ownership of critical files, directories, and permissions.
     The root account could be logged into from multiple virtual consoles.
     The method in which database replication was taking place from headquarters to the
        COOP installation is lacking in functionality and completeness, and would require a
        significant amount of subject matter expert manual intervention to failback, in the
        event of an actual system failure.
     Developers had access to sensitive information in production by having direct
        development access to production systems via a database link.
     Development and test databases have database links directly connected to the
        production database. This configuration of database links produces an inefficient,
        difficult to manage, non-scalable Oracle database solution.
     The IT System Life Cycle Methodology is not consistently implemented across all
        projects within PBGC. We reviewed the Product Quality Assurance audit summary of
        the HP Service Manager 7 software implementation and noted that various critical
        components were lacking such as:
        o Weaknesses noted in the approval, configuration management and change
             control processes.
        o Failure to obtain approval signatures on key documents and test artifacts.
        o Incomplete Requirements Traceability Matrix (RTM).
        o Failure to update the RTM resulting in lack of traceability between the
             requirements and the test cases.


                                           9
        o   Lack of evidence that key test activities were conducted in the test environment
            as planned.
       Backout plans for reversing system changes in case of an unexpected situation are
        not consistently documented.

    Controls are not in place to ensure adequate consideration of the potential security
    impacts due to specific changes to an information system or its surrounding
    environment. PBGC is exposed to increased risk of data modification or deletion.
    Unauthorized changes could occur undetected. Applications and critical business
    processes may not be restored in a timely manner in the event of a true disaster.

    Recommendations:

    o   Develop and implement procedures and processes for the consistent implementation
        of common configuration management controls to minimize security weaknesses in
        general support systems. (OIG Control # FS-07-07)

    o   Develop and implement a coherent strategy for correcting IT infrastructure
        deficiencies and a framework for implementing common security controls, and
        mitigating the systemic issues related to access control by strengthening system
        configurations and user account management for all of PBGC’s information systems.
        (OIG Control # FS-09-12)

    o   Establish baseline configuration standards for all of PBGC’s systems. (OIG Control
        # FS-09-13)

    o   Review configuration settings and document any discrepancies from the PBGC
        configuration baseline. Develop and implement corrective actions for systems that do
        not meet PBGC’s configuration standards. (OIG Control # FS-09-14)

    o   Ensure test, development and production databases are appropriately segregated to
        protect sensitive information and fully utilized to increase system performance.
        (OIG Control # FS-09-15)

    o   Establish interim procedures to implement available compensating controls (such as
        establishing a test team to verify developer changes in production) until a
        comprehensive solution to adequately segregate test, development and production
        databases can be implemented. (OIG Control # FS-09-16)

   PBGC’s policies and practices have not effectively restricted the addition of unnecessary
    and generic accounts to systems in production. Consequently, the number of
    unnecessary and generic accounts grew over the years. PBGC management has not
    determined if the removal of all legacy generic accounts would disrupt production
    activities.

    Failure to identify and remove unnecessary accounts from the system could result in
    PBGC’s       systems     being     at    an     increased     risk     for   unauthorized
    access/modification/deletion of sensitive system and/or participant information.

    Recommendation:



                                           10
    o   Continue to remove unnecessary user and/or generic accounts. (OIG Control # FS-
        07-08)
   Controls are not consistently implemented to appropriately segregate duties and grant
    rights and privileges commensurate with the job functions and responsibilities. PBGC
    does not have a coherent strategy for enforcing segregation of duties through strong
    technical controls in its applications and general support systems. PBGC’s decentralized
    approach to system development and configuration management has exacerbated
    inconsistency and control weaknesses in implementing strong technical controls to
    enforce segregation of incompatible duties.

    Incompatible duties and improper password management increase the potential risk of
    fraud, errors and ommissions.

    Recommendations:

    o   Consistently implement controls to appropriately segregate duties and grant rights
        and privileges commensurate with the job functions and responsibilities.
        (OIG Control # FS-07-09)

    o   Assess the risk associated with lacking segregation of duties, password
        management, and overall inadequate system configuration. Discuss risk with system
        owners and implement compensating controls wherever possible. If compensating
        controls cannot be implemented the system owner should sign-off indicating risk
        acceptance. (OIG Control # FS-09-17)

   Developers have access to the production environment, which exposes PBGC to the risk
    of unauthorized modification of the application, the circumvention of critical controls, and
    unnecessary access to sensitive data. Weaknesses in the design of PBGC’s
    infrastructure and deployment strategy for legacy systems and applications created an
    environment where developers have unrestricted access to production. PBGC has not
    developed and implemented adequate compensating controls to restrict developer’s
    access to production. PBGC has not fully resolved infrastructure design issues, nor have
    they developed and implemented a coherent program to manage and maintain legacy
    applications.

    Failure to appropriately restrict privileged access to the production environment could
    result in unauthorized access/modification/deletion to sensitive system and/or participant
    information and the release of harmful code into the production environment.

    Recommendations:

    o   Appropriately restrict developers’ access to production environment to only
        temporary emergency access. (OIG Control # FS-07-10)

    o   Assess developers’ access to production on all PBGC systems and determine if
        access is required based on the security principles “need to know and least
        privilege”. If developers require access to a specific application, the reason should be
        documented and management should sign-off indicating acceptance of the risk(s). In
        all other instances developer access to production should be immediately removed.
        (OIG Control # FS-09-18)



                                            11
   Controls are not consistently applied to ensure that authentication parameters for
    general support systems (e.g. Novell, Windows, SUN Solaris, Oracle, etc.) and
    applications comply with the IAH. PBGC’s decentralized approach to system
    development and configuration management has made it particularly difficult to
    implement consistent technical controls across PBGC’s many systems, platforms, and
    applications.

    Failure to follow secure build standards and reassign or remove unowned user files
    provides internal and external attackers additional paths into PBGC’s systems and could
    result in an increased risk of unauthorized access, modification, or deletion of sensitive
    system and participant information. These control weaknesses increase the risk for
    fraud, waste and abuse.

    Recommendations:

    o   Consistently apply controls to ensure that authentication parameters for PBGC’s
        general support systems (e.g. Novell, Windows, Sun Solaris, Oracle, etc.) and
        applications comply with the IAH. (OIG Control # FS-07-11)

    o   Implement a manual review process whereby OIT periodically reviews systems for
        compliance with baseline settings. (OIG Control # FS-09-19)

   PBGC is still in the process of identifying dependencies between databases,
    applications, and operating systems in order to fully implement controls to lock out and
    remove inactive and dormant accounts. However, there are still some PBGC systems
    that have not implemented these controls. PBGC’s configuration management
    weaknesses have contributed significantly to its inability to effectively implement controls
    to ensure the consistent removal and locking out of generic or dormant accounts.

    Without full development and implementation of security controls, the lack of an effective
    policy addressing lock out, inactive accounts, and dormant accounts provides another
    control weakness that could be exploited and compromise the integrity, confidentiality
    and availability of PBGC’s systems and applications.

    Recommendation:

    o   For the remaining systems, apply controls to lock out and remove inactive and
        dormant accounts after a specified period in accordance with the IAH. (OIG Control
        # FS-07-12)

   The OIT recertification process is incomplete and only addresses generic and service
    accounts; it does not include all user and system accounts. In addition, the
    Recertification of User Access Process, version 1.2, does not explicitly state that all
    accounts (e.g. user, system, and service) across all platforms and applications will be re-
    certified annually. PBGC’s infrastructure design and configuration management
    weaknesses have contributed significantly to its inability to effectively implement controls
    to recertify all user and system accounts.




                                            12
    Unauthorized users could gain access to PBGC’s data and personally identifiable
    information (PII). Without periodic recertification of accounts (user, generic, service and
    system) management does not have adequate assurance that only current authorized
    users have access to PBGC resources.
    Recommendation:

    o   Complete the implementation of the recertification process for all user and system
        accounts. Continue to perform annual recertification and include all PBGC’s
        accounts (e.g. user, generic, service, and systems accounts) for general support
        systems and major applications. (OIG Control # FS-07-13)

   Vulnerabilities found in key databases and applications include weaknesses in
    configuration, roles, privileges, auditing, file permissions, and operating system access.
    These PBGC system vulnerabilities are caused by an ineffective deployment strategy in
    the development, test, and production environments. Ineffective system deployments
    have resulted in an environment that is in disarray.

    Security control weaknesses and vulnerabilities in key databases were not mitigated,
    and adversely impacted the security and integrity of PBGC’s development, test, and
    production environments. PBGC is exposed to increased risk of data modification or
    deletion. Unauthorized changes could occur, undetected.

    Recommendations:

    o   Implement controls to remedy vulnerabilities noted in key databases and applications
        such as weaknesses in configuration, roles, privileges, auditing, file permissions, and
        operating system access. (OIG Control # FS-07-14)

    o   Implement controls to remedy weaknesses in the deployment of servers,
        applications, and databases in the development, test, and production environments.
        (OIG Control # FS-09-20)

   Access request authorizations were not appropriately documented. PBGC has not fully
    implemented controls to ensure Enterprise Local Area Network forms are properly
    documented and maintained.

    Failure to ensure proper authorization may expose PBGC’s systems to inadequate
    segregation of incompatible duties and unauthorized users having access to PBGC data
    and PII.

    Recommendation:

    o   Ensure that adequate documentation of access authorization is maintained by
        implementing proper monitoring and enforcement measures in compliance with
        approved policies and procedures. (OIG Control # FS-07-15)

   PBGC lacks an effective process to track contractors throughout their employment at
    PBGC, including appropriate notifications of start dates and separation. Management
    reported that policies and procedures, to include PBGC directive PM 05-1, PBGC
    Entrance on Duty and Separation Procedures for Federal and Contract Employees, have



                                            13
    not been updated to provide effective enforcement of controls designed to track entrance
    and separation of all Federal and contract employees.

    Without full development and implementation, security controls are inadequate to
    prevent contractors from having unauthorized access to PBGC’s systems, applications,
    and facilities.

    Recommendations:

    o   Update and enforce directive PM 05-1, PBGC Entrance on Duty and Separation
        Procedures for Federal and Contract Employees, to ensure contract personnel can
        be tracked effectively. Also, ensure a formal Entrance on Duty and Separation
        Clearance process is followed. (OIG Control # FS-07-16)

   Periodic logging and monitoring of security-related events for PBGC’s applications were
    inadequate for CFS, PAS, Trust Accounting System (TAS), Participant Records
    Information Systems Management (PRISM), and Integrated Present Value of Future
    Benefits (IPVFB) systems. PBGC’s IT infrastructure consist of multiple legacy systems
    and applications (e.g. PAS, TAS, IPVFB, PRISM, GENESIS database, Solaris 8, Oracle
    8i, Novell NetWare 5.1, Windows NT, etc.) that do not have a coherent architecture for
    management and security.

    Controls are not in place to ensure adequate consideration of the potential security
    impacts due to specific changes to an information system or its surrounding
    environment. PBGC is exposed to increased risk of data modification or deletion.
    Unauthorized changes could occur, undetected.

    Recommendation:

    o   Implement a logging and monitoring process for application security related events
        and critical system modifications (e.g. CFS, PAS, TAS, PRISM, and IPVFB).
        (OIG Control # FS-07-17)

   The application virtualization/application delivery product Citrix MetaFrame Presentation
    Server used by PBGC’s benefit payments service provider to connect to its benefit
    payments system, PLUS, reached its end of life date on December 31, 2009. PBGC did
    not include the Citrix MetaFrame Presentation Server in the system boundary when
    conducting the C&A of the PLUS application. Although continuous monitoring was
    implemented, no alerts were provided to PBGC about the application
    virtualization/application becoming obsolete and the potential security risk to PLUS.
    Obsolete software may expose PBGC’s infrastructure to a security-related vulnerability.
    PBGC is exposed to increased risk of data modification or deletion. Unauthorized
    changes could occur undetected.

    Recommendation:

    o   Replace the Citrix MetaFrame presentation server. (OIG Control #FS-10-04)




                                           14
       o   Include the application virtualization/application delivery product used by the benefits
           payments service provider to access the PLUS application in the system boundary.
           (OIG Control # FS-10-05)

      The TeamConnect application, which replaced the Lotus Notes system in FY 2010,
       maintains a nightly premium output batch file error log in a .txt file format, which can be
       edited. Management has not locked down the TeamConnect output file from
       manipulation. Because the exception log data can be manipulated, the Actuarial
       database into which the data is being transferred, may be compromised or corrupted.
       Unresolved inaccuracies between the Corporate Data Management System and the
       Actuarial Database could result in errors in the amount of contingent liabilities recorded
       and disclosed in the financial statement.

       Recommendation:

       o   Configure TeamConnect to ensure the integrity of the nightly premium output batch
           file error log. (OIG Control # FS-10-06)

3. Integrated Financial Management Systems

   The risk of inaccurate, inconsistent, and redundant data is increased because PBGC lacks a
   single integrated financial management system. The current system cannot be readily
   accessed and used by financial and program managers without extensive manipulation,
   excessive manual processing, and inefficient balancing of reports to reconcile
   disbursements, collections, and general ledger data.

   OMB Circular A-127, Financial Management Systems, requires that Federal financial
   management systems be designed to provide for effective and efficient interrelationships
   between software, hardware, personnel, procedures, controls, and data contained within the
   systems. This Circular states:

       The term "single, integrated financial management system" means a unified set of
       financial systems and the financial portions of mixed systems encompassing the
       software, hardware, personnel, processes (manual and automated), procedures,
       controls and data necessary to carry out financial management functions, manage
       financial operations of the agency and report on the agency's financial status to central
       agencies, Congress and the public. Unified means that the systems are planned for and
       managed together, operated in an integrated fashion, and linked together electronically
       in an efficient and effective manner to provide agency-wide financial system support
       necessary to carry out the agency's mission and support the agency's financial
       management needs.

   OMB’s Office of Federal Financial Management, formerly the Joint Financial Management
   Improvement Program, “Core Financial System Requirements” document, lists the following
   integrated financial management system attributes:

      Standard data classifications (definition and formats) established and used for recording
       financial events.
      Common processes used for processing similar kinds of transactions.




                                               15
   Internal controls over data entry, transaction processing, and reporting that are applied
    consistently.
   A system design that eliminates unnecessary duplication of transaction entry.

Because PBGC has not integrated its financial systems, PBGC’s ability to accurately and
efficiently accumulate and summarize information required for internal and external financial
reporting is impacted. Many of the weaknesses included in this report were reported in prior
years. The specific weaknesses we found that contributed to the material weakness and our
recommendations to correct them are as follows:

Lack of standard data classifications and common data elements:

   PBGC continues to work towards a logical database model (Enterprise Data Model
    (EDM). Elements of the EDM include the general ledger, purchases, portfolio
    management, payroll, investment management, financial institutions, budgeting,
    accounts receivable, and accounts payable. Until the development and implementation
    of the EDM is complete, the current systems have no centralized data catalog defining
    data elements or a common data access method available for current databases.
   The current decentralized database structure may lead to erroneous financial and
    participant data. For example, the same data elements are required to be reformatted or
    are used for different purposes across PBGC's various applications.
   The current decentralized database structure may lead to outdated financial or
    participant data. Because participant data must be reformatted and distributed to
    multiple PBGC systems, users may be relying on outdated information to make business
    decisions.

Duplication of transaction entry:

   Probable and multi-employer plan data initially entered into IPVFB must be manually
    re-entered into a spreadsheet and then manually entered into CFS as adjusting journal
    entries.
   Plan data initially entered into the Case Management System application must be
    re-entered into the TAS application's portfolio header.
   Plan contingency listings are determined using data extracted from PAS. However, plans
    with multiple filings must be manually aggregated before the plans can be classified.
   Plan sponsor data address information must be manually entered into CFS to process
    refunds.

Obsolete and antiquated technologies:

PBGC’s information systems employ obsolete and antiquated technologies that pose
additional risk to the availability of financially significant systems. These technologies are
unsupported and add to the challenges to integrate PBGC’s systems in an IT infrastructure
that lacks a cohesive architecture and design.

A Federal agency’s ability to effectively and efficiently maintain and modernize its existing IT
environment depends primarily on how well it employs certain IT management controls that
are embodied in statutory requirements, Federal guidance, and best practices. Among other
things, these controls include strategic planning and performance measurement, portfolio-
based investment management, human capital management, enterprise architecture (and



                                            16
   supporting segment architecture) development           and    use,   and     responsibility   and
   accountability for modernization management.

   If managed effectively, IT investments can have a dramatic impact on an organization’s
   performance and accountability. If not correctly managed, they can result in wasteful
   spending and lost opportunities for achieving mission goals and improving mission
   performance. PBGC had several false starts in modernizing its systems and applications
   that have either been abandoned, such as the suspension of work on the PPS to replace
   PAS, or have been ineffective in leading to the integration of its financially significant
   systems. Unless PBGC develops and implements a well designed IT architecture and
   infrastructure to guide and constrain modernization projects, it risks investing time and
   resources in systems that do not reflect the Corporation’s priorities, are not well integrated,
   are potentially duplicative, and do not optimally support mission operations and
   performance.

   To its credit, PBGC began to develop an overall strategy, but much work remains before the
   strategy can be completed and implemented. Steps PBGC has taken include the following:

   1. PBGC identified all systems that provide data required to prepare the financial
      statements.
   2. PBGC substantially completed the logical database model including standard data
      definitions and formats to be used throughout the Corporation.
   3. PBGC completed alternative analysis studies for Premium Accounting and CFS.

Major work remains to be completed to set the foundation for an integrated financial
management system, including the development and implementation of new IT system
solutions/functions in accordance with the Financial Management Segment Architecture and
strategic system plan.

       Recommendation:

       o   PBGC needs to develop and execute a plan to integrate its financial management
           systems in accordance with OMB Circular A-127. (OIG Control # FS-07-18)

The internal control report recommendations status is presented in Exhibit I.

This report is intended for the information and use of the management and Inspector General of
PBGC and is not intended to be and should not be used by anyone other than these specified
parties.



Calverton, Maryland
November 12, 2010




                                               17
            EXHIBIT I - Status of Internal Control Report Recommendations
                                          
Prior Year Internal Control Report Recommendations Closed During FY 2010:

Recommendation       Date Closed              Original Report Number
None

Open Recommendations as of September 30, 2010:

Recommendation              Report
Prior Years'
 FS-07-04                    2008-2/FA-0034-2
 FS-07-06                    2008-2/FA-0034-2
 FS-07-07                    2008-2/FA-0034-2
 FS-07-08                    2008-2/FA-0034-2
 FS-07-09                    2008-2/FA-0034-2
 FS-07-10                    2008-2/FA-0034-2
 FS-07-11                    2008-2/FA-0034-2
 FS-07-12                    2008-2/FA-0034-2
 FS-07-13                    2008-2/FA-0034-2
 FS-07-14                    2008-2/FA-0034-2
 FS-07-15                    2008-2/FA-0034-2
 FS-07-16                    2008-2/FA-0034-2
 FS-07-17                    2008-2/FA-0034-2
 FS-07-18                    2008-2/FA-0034-2
 FS-08-01                    AUD-2009-2/FA-08-49-2
 FS-08-02                    AUD-2009-2/FA-08-49-2
 FS-08-03                    AUD-2009-2/FA-08-49-2
 FS-09-01                    AUD-2010-2/FA-09-64-2
 FS-09-02                    AUD-2010-2/FA-09-64-2
 FS-09-03                    AUD-2010-2/FA-09-64-2
 FS-09-04                    AUD-2010-2/FA-09-64-2
 FS-09-05                    AUD-2010-2/FA-09-64-2
 FS-09-06                    AUD-2010-2/FA-09-64-2
 FS-09-07                    AUD-2010-2/FA-09-64-2
 FS-09-08                    AUD-2010-2/FA-09-64-2
 FS-09-09                    AUD-2010-2/FA-09-64-2
 FS-09-10                    AUD-2010-2/FA-09-64-2
 FS-09-11                    AUD-2010-2/FA-09-64-2
 FS-09-12                    AUD-2010-2/FA-09-64-2
 FS-09-13                    AUD-2010-2/FA-09-64-2
 FS-09-14                    AUD-2010-2/FA-09-64-2
 FS-09-15                    AUD-2010-2/FA-09-64-2
 FS-09-16                    AUD-2010-2/FA-09-64-2
 FS-09-17                    AUD-2010-2/FA-09-64-2
 FS-09-18                    AUD-2010-2/FA-09-64-2
 FS-09-19                    AUD-2010-2/FA-09-64-2
 FS-09-20                    AUD-2010-2/FA-09-64-2



                                         18
            EXHIBIT I - Status of Internal Control Report Recommendations
                                           

FY Ended September 30, 2010
FS-10-01                      AUD-2011-3/FA-10-69-2
FS-10-02                      AUD-2011-3/FA-10-69-2
FS-10-03                      AUD-2011-3/FA-10-69-2
FS-10-04                      AUD-2011-3/FA-10-69-2
FS-10-05                      AUD-2011-3/FA-10-69-2
FS-10-06                      AUD-2011-3/FA-10-69-2




                                          19
   Report on Internal Controls Related to the
    Pension Benefit Guaranty Corporation’s
Fiscal Year 2010 and 2009 Financial Statements



    Audit Report AUD-2011-3 / FA-10-69-2




                 Section II

        Management Comments
                                 Pension Benefit Guaranty Corporation 

ProtectIng Am.,I...•• Pen.ion.   1200 K Street. N.W.• Washington. D.C. 20005-4026


    Office of the Director




                                                      MEMORANDUM

               November 8, 2010

               To: 	               Rebecca Anne Batts 

                                   Inspector General 


               From: 	             Josh Gotbaum y~            

                                   Director    r ~(       


               Subject: 	          Response to the Office ofInspector General's (OIG's) Draft
                                   Report on Internal Control for FY 20 10


               Thank you for the opportunity to respond to the subject draft report. PBGC is committed
               to addressing the recommendations contained in this report and to remediating the
               associated material weakness. We agree with the 43 recommendations in the draft
               special report on internal control. Of these, 37 recommendations remain open from prior
               audit findings with which management has already agreed. We also agree with the six
               new recommendations.

               We have provided our responses to each recommendation below, and we will be updating
               our corrective action plans in the near future . We will keep your office informed as we
               move forward.

               Entity-wide Security Program Planning and Management

               1.     Recommendation: Effectively communicate to key decision makers the state of
               PBGC's IT infrastructure and environment to facilitate the prioritization of resources to
               address fundamental weaknesses. (OIG Control Number FS-09-01)

               Response: Management agrees. To address this and other prior year findings, PBGC
               developed a CAP that is a three- to five-year holistic approach. The CAP project
               represented a collaborative effort of subject matter experts from across OIT. The
               resulting plan used NIST 800-53 as a framework.

               The CAP has been broken into several process families to address the underlying, root
               causes of the findings. These recommendations will primarily be addressed as we rebuild
               our IT Security Program. We expect to make progress each year toward the overall CAP,
               while adjusting schedules as necessary. PBGC will be communicating the progress and
                                                                  1

any schedule adjustments to       on a regular basis, providing transparency of the overall


2.     Recommendation: Complete and confirm the       implementation, and
operating          of all common security controls identified. (OIG Control
Number FS-08-01)

             Management           Please see response to           , above. In addition, please
note that, as we        our             Program,     list           65 common controls
          If     do, we will document                to                  our work      to provide
    with an audit traiL

3.     Recommendation: Develop a            to review and validate reported progress
on    implementation of the common security controls. Implement a           to test and
document    effectiveness each new           implemented. (OIG Control Number
FS-09-02)

Response: Management agrees. Please see the response to Recommendation                   above.

4. 	  Recommendation: Develop and implement a well-designed security
             program that will provide security to the information and information
       that support     operations and assets of the Corporation, including those
managed     contractors or other Federal            (OIG Control Number FS-09-03)

Response: Management              Please see response to Recommendation # 1,

       Recommendation: Complete the development and implementation of the
                        infrastructure and the           and                of
             to support a more coherent          to providing          "pr\l1f"~" and

information system                          (OIG Control Number FS-09-04)

Response: Management 	                   see          response to Recommendation # 1, above.

6.     Recommendation: Implement an                 review          to validate
completion of the certification and accreditation         for all major applications and
        support systems.              should not    performed by an individual
associated with the performance of      C&A or by someone who could influence
        This review should be completed for all components of the work performed to
ensure substantial documentation is available     supports and            the
obtained. (OIG Control Number FS-08-02)

Response: 	                              see "''''''',",{"\M   to Recommendation # 1, above.

       Recommendation:        that adequate documentation is maintained which
supports,            and        all                      reached in
process. (OIG Control Number FS-09-05)


                                               2

Response: Management agrees. Please see response to Recommendation # 1, above.

S.      Recommendation: Establish and implement comprehensive procedures and
document the roles and responsibilities that ensure oversight and accountability in the
certification and review process. Retain evidence of oversight reviews and take action to
address erroneous or unsupported reports of progress. (OIG Control Number FS-09­
06)

Response: Management agrees. Please see response to Recommendation #1 , above.

9.      Recommendation: Maintain an accurate and authoritative inventory list of major
applications and general support systems. Ensure the list is disseminated to responsible
staff and used consistently throughout PBOC OIT operations. (OIG Control Number
FS-09-07)

Response: Management agrees . Please see the response to Recommendation # 1, above.

10.     Recommendation: Implement an independent and effective review process to
validate the completion of C&A packages for all applications and general support
systems hosted on behalf of PBOC by third party processors. The effective review
should include examining host and general controls risk assessments. (OIG Control
Number FS-OS-03)

Response: Management agrees. Please see response to Recommendation # 1, above.

11.     Recommendation: Implement robust and rigorous review procedures to verify
that future contracts for the C&A of PBOC's systems clearly outline expectations and
deliverables in the statement of work. (OIG Control Number FS-09-0S)

Response: Management agrees. Please see response to Recommendation # 1, above.

12.     Recommendation: Implement a robust and rigorous quality review process to
verify contractor C&A deliverables meet the requirements specified in the statement of
work. (OIG Control Number FS-09-09)

Response: Management agrees. Please see the response to Recommendation #1, above.

13.   Recommendation: Establish controls to ensure that contract staff tasked with the
C&A of PBOC systems have the appropriate knowledge and background to accurately
and comprehensively complete the C&A process . (OIG Control Number FS-09-10)

Response: Management agrees. Please see the response to Recommendation # 1, above.




                                            3

14.     Recommendation: Implement a robust and rigorous process to
compliance with         policy on contractor management throughout the C&A
lifecycle. (OIG Control Number FS-09-11)

Response: Management 	                     see the 1""<"'r.r....'   to Recommendation # 1,

        Recommendation: Develop and implement a"""""''"'''''''
                and awareness of            security                              through
                     (OIG Control Number FS-07-04)

Response: Management agrees. We have already initiated steps to address this
recommendation. We           engaged in a     of Business offering by the {j          of
Personnel Management (OPM) to             information security and privacy awareness.
We plan to implement computer-based training in       2011, which will enable automated
tracking and reporting on who has received training. In addition, we are updating our
policies and procedures to reflect new      guidance this area. Moreover, we are
enhancing the information security and awareness training program to provide role-based
training       it is needed.

16.                                       document, and publish ,"""",,,<,,,,",,,,­
OIT provides to the                 that are acceptable to  information "'t<.~""v; owners. 

(OIG Control Number FS-07-06) 


Response: 	                                see   f'PQ,C\rWI                        #1, above.

17. 	                                 implement an
            potential 	        posed    locating the 

              US. (OIG Control # FS-I0-0l) 


Response:      Management agrees.             immediacy the recommendation,
management analyzed the situation and concluded that no significant additional risk is
posed to the             that        uses. Results of             and conclusions are
documented with the Security Plan for PLUS.                                to discuss
    further with OIG.

18.   Recommendation: Review PBGC contracts to ensure contractors are required to
comply with    information security standards and FISMA. (OIG Control # FS-lO-


Response:       Management            Management will                             contract with
State         Corporation to ensure that the contractor is                     FISMA compliant.

19.     Recommendation: Develop and                                   and MOU with
organizations whose             COIU1ect to PBGC's                             System (CFS).
(OIG Control # FS-1O-02)



                                                 4

Response: Management               developing and implementing   appropriate,
relevant        with =v"o....~~ organizations whose       connect with

l4LlL"-"'''''' Controls and Configuration Management

20. 	Recommendation: Develop                  procedures and processes     the
              implementation of common configuration             controls to
                                 in general      systems. (OIG Control Number
    FS-07-07)

Response: 	               agrees.         see response to Recommendation 1, above.

21. 	 Recommendation: Develop and implement a
                      and a framework for implementing common
                               related to access control by        system
               user account management for all ofPBGCs information
(OIG Control Number FS-09-12)

Response: Management                Please see the             to Recommendation # I, above.

22. 	   Recommendation: Establish baseline configuration standards               of
          (OIG Control Number FS-09-13)

Response: Management                       see response to 	                   #1,

23.    Recommendation:              configuration settings and document
discrepancies 	 the           configuration baseline. Develop      implement corrective
                           not meet PBGC's configuration standards. (OIG Control


Response: 	                         Please see resno:nse to Recommendation # 1,

24.    Recommendation:                  development     production              are
appropriately 	     to      "'rf't",.~t     information    also fully utilized to
                                 (OIG Control Number FS-09-15)

Response: Management agrees. Please see                 to Recommendation # 1,

25.    Recommendation: Establish interim procedures to implement available
compensating controls (such as establishing a test team to verify developer        in
production) until a comprehensive solution to adequately                 development and
production databases can be implemented. OIG Control Number FS-09-16)

Response: Management 	                    see           to Recommendation # 1, above.




                                                5

26. Recommendation: Continue to remove unnecessary user and/or generic accounts.
(DIG Control Number FS-07-0S)

Response: Management agrees. Please see response to Recommendation #} , above.

27. Recommendation: Consistently implement controls to appropriately segregate
duties and grant rights and privileges commensurate with the job functions and
responsibilities. (DIG Control Number FS-07-09)

Response: Management agrees. Please see response to Recommendation #}, above.
2S.     Recommendation: Assess the risk associated with lacking segregation of duties,
password management, and overall inadequate system configuration. Discuss risk with
system owners and implement compensating controls wherever possible. If
compensating controls cannot be implemented the system owner should sign-off
indicating risk acceptance. (DIG Control Number FS-09-17)

Response: Management agrees. Please see response to Recommendation #}, above.

29.    Recommendation: Appropriately restrict developers' access to production
environment to only temporary emergency access. (DIG Control Number FS-07-10)

Response: Management agrees. Please see response to Recommendation #}, above.

30.     Recommendation: Assess developers' access to production on all PBGC
systems and determine if access is required based on the security principles "need to
know and least privilege". If developers require access to a specific application, the
reason should be documented and management should sign-off indicating acceptance of
the risk(s). In all other instances developer access to production should be immediately
removed. (DIG Control Number FS-09-1S)

Response: Management agrees. Please see response to Recommendation #}, above.

31.     Recommendation: Consistently apply controls to ensure that authentication
parameters for PBGC's general support systems (e.g. Novell, Windows, Sun Solaris,
Oracle, etc.) and applications are in compliance with the IAH. (DIG Control Number
FS-07-11)

Response: Management agrees. Please see response to Recommendation #} , above.

32.    Recommendation: Implement a manual review process whereby OIT
periodically reviews systems for compliance with baseline settings. (DIG Control
Number FS-09-19)

Response: Management agrees. Please see response to Recommendation #}, above.




                                            6

33.   Recommendation: For the remaining systems, apply controls to lock out and
remove inactive and dormant accounts after a specified period in accordance with the
lAB. (OIG Control Number FS-07-12)

Response: Management agrees. Please see response to Recommendation # 1, above.

34.      Recommendation: Complete the implementation of the recertification process
for all user and system accounts. Continue to perform annual recertification and include
all PBGC's accounts (e.g. user, generic, service, and systems accounts) for general
support systems and major applications. (OIG Control Number FS-07-13)

Response: Management agrees. Please see response to Recommendation # 1, above.

35.     Recommendation: Implement controls to remedy vulnerabilities noted in key
databases and applications such as weaknesses in configuration, roles, privileges,
auditing, file permissions, and operating system access. (OIG Control Number FS-07­
14)

Response: Management agrees. Please see response to Recommendation # 1, above.

36.     Recommendation: Implement controls to remedy weaknesses in the deployment
of servers, applications, and databases in the development, test, and production
environments. (OIG Control Number FS-09-20)

Response: Management agrees. Please see response to Recommendation # 1, above.

37.    Recommendation: Ensure that adequate documentation of access authorization
is maintained by implementing proper monitoring and enforcement measures in
compliance with approved policies and procedures. (OIG Control Number FS-07-15)

Response: Management agrees. Please see response to Recommendation # 1, above.

38.    Recommendation: Update and enforce directive PM 05-1, PBGC Entrance on
Duty and Separation Procedures for Federal and Contract Employees, to ensure contract
personnel can be tracked effectively. Also, ensure a formal Entrance on Duty and
Separation Clearance process is followed. (OIG Control Number FS-07-16)

Response: Management agrees. PBGC Directive PM -05-1, Entrance on Duty and
Separation Procedures for Federal and Contract Employees was updated and
disseminated to PBGC Federal and Contract employees on October 19,2010. This
update enhances Internal Controls for the tracking of PBGC Contractors and reflects a
more aggressive strategy for the tracking of Contractors at PBGC. The Internal Controls
establishes accountability to the Contracting Officer's Technical Representative for the
timely entrance on duty and separation of Contractors, as well as the documentation of
their tenure at PBGC.



                                            7

39.     Recommendation: Implement a logging and monitoring process for application
security related events and critical system modifications (e.g. CFS, PAS, T AS, PRlSM,
and IPVFB). (OIG Control Number FS-07-17)

Response: Management agrees. Please see response to Recommendation #1, above.

40.   Recommendation: Replace the Citrix MetaFrame presentation server. (OIG
Control #FS-IO-04)

Response: Management agrees. PBOC will work with its paying agent to replace Citrix
or come up with an interim solution until PLUS Web is deployed in 2011. PBOC will
also consider including this in the boundary when future C&A's are completed.

41.     Recommendation: Include the application virtualizationJapplication delivery
product used by the benefits payments service provider to access the PLUS application in
the system boundary. (OIG Control #FS-IO-05)


Response: Management agrees. Please see response to Recommendation #40, above.

42.   Recommendation: Configure TeamConnect to ensure the integrity of the nightly
premium output batch file error log. (OIG Control #FS-IO-06)

Response: Management agrees.

Integrated Financial Management Systems

43.     Recommendation: PBOC needs to develop and execute a plan to integrate its
financial management systems in accordance with OMB Circular A-l27. (OIG Control
Number FS-07-18)

Response: Management agrees and appreciates the OIO's acknowledgement of PBOC's
significant accomplisrunents to date. During FY 2010, the Financial Operations
Department (FOD); Office of Information Technology and other PBOC Departments
continued to follow through with PBOC's Corrective Action Plan (CAP) in several areas,
as discussed below.

First, PBOC completed segment architectures for all segments contmnIng financial
management system functions, including the Consolidated Financial System (CFS);
Premium Accounting; Benefits Administration; Procurement; and Budget. Moreover,
the FOD has prepared and submitted to the Office of Management and Budget (OMB)
Exhibit 300s for CFS and Premium Accounting that provide detailed plans for
development, modernization, and enhancement efforts that are geared toward integrating
the financial management systems. We believe the high level segment architectures,
along with the more prescriptive Exhibit 300s constitute a solid roadmap to address this
recommendation.


                                           8

Secondly,            implemented significant eruJarlceme'ms and
efforts to the Premium Accounting                      during FY
completion of this        modernization       is a         milestone in PBGC's long term
plan to replace and                                The PAS modernization effort provided
major functional and technical                  areas of: (l) PPA            changes; (2)
upgrade     the Letter Generation                     (3) improvements to the DOL Form
5500             (4) Plan                           Reporting; and (5)         migration
from Oracle 8i to I

Going forward, PBGC has already planned       improvements to its         System.
In    FY    12 budget submission,       requested     funding to complete its new
premium system that is planned for implementation        November 2013. When
completed,           will address a cornerstone of PBGC's            management
            a modem and integrated         accounting

Third,     FaD started            FY 10 to implement a new       Accounting System
(TAS). The T AS           is intended to     existing technology
                     and Portfolio              and
comprehensive, modem,
of trusteed plans. The T AS
2012.

    FY 2010, the FaD also               to modernize       manual interface           the
Consolidated             System (CFS) and the                Suite (Procurement System)
that is scheduled to       implemented in         2011. When completed, this electronic
          should upload obligating documents from the Comprizon Suite to the CFS,
thereby eliminating the need to manually record obligations, eliminating duplicate entry,
and          the risk of inaccurate financial information.

Lastly, in    2011,       will be implementing electronic interfaces between the (1)
and FedTraveler (Travel Management System) and          (2)       and the Federal Personnel
Payroll System (U.S. Department Interior Payroll System).               interface
                                                                               ."TTI',..,.'"


should complete integration the remaining         applications that now interface
manually with the CFS, thereby eliminating manual processes to record travel and payroll
information,             duplicate entry, and               risk of inaccurate financial
information. Also         FY      I,    FaD will be implementing Electronic Invoicing to
      and automatically route          for approval to           the
           vendor invoices      payment.




                                             9

If you want to report or discuss confidentially any instance
 of misconduct, fraud, waste, abuse, or mismanagement,
      please contact the Office of Inspector General.



                       Telephone:
            The Inspector General’s HOTLINE
                    1-800-303-9737

  The deaf or hard of hearing, dial FRS (800) 877-8339
   and give the Hotline number to the relay operator.



                           Web:
       http://oig.pbgc.gov/investigation/details.html



                         Or Write:
          Pension Benefit Guaranty Corporation
               Office of Inspector General
                     PO Box 34177
             Washington, DC 20043-4177
